                                       NATIONAL SCIENCE FOUNDATION
                                        OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS


                                  CLOSEOUT MEMORANDUM


Case Number: A06060022                                                          Page 1of 1



    We received a n allegation of plagiarism, specifically intellectual theft, regarding a
    proposal1 submitted to NSF. The complainant alleged the proposal relied too
    heavily on a book2 without giving appropriate credit. The complainant said if the
    proposal would have explicitly stated it was based on the research in the book, he
    would not have complained. He said there was no verbatim plagiarism, but most of
    the research questions raised i n the proposal were also raised i n the book, and the
    section headers of the book appear throughout the proposal.
    We compared the proposal to the book following the complainant's allegation. The
    proposal references the book six times: once under the heading Research Problem;
    three times under the heading Background and Theoretical Significance; and twice
    more under the heading Research Design. While we did not count how many times
    each reference was cited, but six appears significant given t h a t it occurs in the eight
    pages of the Project Description. We did not find any substantive similarity
    between the section headers i n the book and those i n the proposal. Given the
    statement of allegation, the failure to identify any substantively similar headings,
    and the proposal's numerous citation of the book, we did not find the P I failed to
    appropriately cite the proposal's connection to the research described i n the book.
    We conclude there is insufficient evidence to proceed with a n investigation;
    accordingly, this case is closed.




       l   (footnote redacted).
       2   (footnote redacted).
